HHS/OIG, Audit - "Emergency Response to Hurricanes Katrina and Rita:
Audit of Program Support Centers Award Process for a Contract With Digital
Infuzion, Inc.," (A-03-06-00515)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Emergency
Response to Hurricanes Katrina and Rita: Audit of Program Support Centers Award
Process for a Contract With Digital Infuzion, Inc.," (A-03-06-00515)
May 21, 2007
Complete Text of Report is available in PDF format (92 kb). Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The Program Support Center (PSC) awarded a fixed-price contract to Digital Infuzion, Inc. (Digital) to provide information technology services to support the disaster relief efforts.
The objective of our audit was to determine whether PSC complied with Federal Acquisition Regulation (FAR) and Health and Human Services Acquisition Regulation (HHSAR) requirements during the award process involving Digital. PSC complied with FAR and HHSAR requirements during the process. PSC awarded this contract under the General Services Administration’s (GSA) Multiple Award Schedule. GSA had already determined that prices for goods and services on the schedule were fair and reasonable. Further, pursuant to FAR 6.102, contract awards under the schedule met the requirement for full and open competition.